BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief Amici
Curiae of the National Jewish Commission on Law and
Public Affairs ("COLPA") and Other Orthodox Jewish
Organizations in Support of Petitioners in 20-1088,
David and Amy Carson, as parents and next friends of
O.C., et al. v. A. Pender Makin, were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 10th day of September, 2021:
Michael Eugene Bindas
Institute for Justice
600 University Street
Suite 1730
Seattle, WA 98101
(206) 957-1300
mbindas@ij.org

Counsel for Petitioners
Sarah Ann Forster
Office of the Attorney General
6 State House Station
Augusta, ME 04333
(207) 626-8866
sarah.forster@maine.gov

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Nathan Lewin
Counsel of Record
Alyza D. Lewin
Lewin & Lewin, LLP
888 17th Street NW
4th Floor
Washington, DC 20036
(202) 828-1000
nat@lewinlewin.com

Of Counsel
Dennis Rapps
450 Seventh Avenue
44th Floor
New York, NY 10123
(646) 598-7316
drapps@dennisrappslaw.com
Counsel for Amici Curiae
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 10, 2021.

onna J. Wo
Becker Gallagher Legal
·shing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affi.ant on the date below designated.

/iy;;; fa-4 Ja J ()Oat
dAi'.1-~
Notary Public

Date:

[seal]

- --

